OFFICE OF THE ATTORNEY G ENERAL
KWAME RAOUL

STATE OF ILLINOIS

ATTORNEY GENERAL

April 24, 2020
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543-0001
Re:

Austin v. Illinois, No. 19-1029

Dear Mr. Harris:
This letter is sent as a request by respondent Illinois for an extension of time to file
a response to the petition for a writ of certiorari in the above-captioned case.
Currently, the response is due on May 4, 2020. I request an extension of 60 days to
file the response, until July 3, 2020.
I request this extension because the COVID-19 outbreak has had a significant
impact on the work of the Office of the Illinois Attorney General. The attorneys in
our office have spent substantial time in recent weeks addressing legal filings as
well as logistical challenges posed by changes to work conditions and determining
how the office can continue to provide essential services for the People of the State
of Illinois. None of the division’s support staff has been required to work (remotely
or otherwise) since March 16, 2020, and most attorneys have worked remotely since
that same date. The lack of support staff and limited access to the office has made
it difficult to access records and pleadings in all of our ongoing litigation.
Additionally, the productivity of many of our attorneys has been impacted for the
foreseeable future by the unavoidable fact that they are working from home full
time while supervising children due to school closures that began on March 12th and
are scheduled to continue for the remainder of the school year. Illinois’s statewide
shelter-in-place order has now been extended through May 30, 2020.
In addition, the assistant attorney general assigned to draft Illinois’s brief in
opposition in this case has primary responsibility for the following additional
matters:
500 South Second Street, Springfield, Illinois 62701 (217) 782-1090 TTY: (877) 844-5461 Fax: (217) 782-7046
100 West Randolph Street, Chicago, Illinois 60601 (312) 814-3000 TTY: (800) 964-3013 Fax: (312) 814-3806
601 South University Ave., Carbondale, Illinois 62901 (618) 529-6400 TTY: (877) 675-9339 Fax: (618) 529-6416

OFFICE OF THE ATTORNEY G ENERAL
KWAME RAOUL

STATE OF ILLINOIS

ATTORNEY GENERAL

•

Answer in Romero v. Varga, No. 19 C 4991, United States District
Court for the Northern District of Illinois;

•

Answer in Smith v. Pfister, No. 19 C 6591, United States District Court
for the Northern District of Illinois;

•

Appellee’s brief in People v. Reveles-Cordova, No. 124797, Illinois
Supreme Court;

•

Oral argument in response to motion to declare statute
unconstitutional in People v. Leifheit No. 19 CF 301, Circuit Court of
Kendall County, Illinois; and

•

Oral argument in response to motion to declare statute
unconstitutional in People v. Reinking, No. 19 CF 145, Circuit Court of
Tazewell County, Illinois.

This is respondent’s first request for an extension of time. It is not made for the
purpose of delay, but to insure that respondent’s interests are fully protected.
Thank you in advance for your attention to this matter.
Sincerely,

Michael M. Glick
Criminal Appeals Division Chief
Office of the Illinois Attorney General
100 West Randolph Street, 12th Floor
Chicago, Illinois 60601
(312) 814-2232

500 South Second Street, Springfield, Illinois 62701 (217) 782-1090 TTY: (877) 844-5461 Fax: (217) 782-7046
100 West Randolph Street, Chicago, Illinois 60601 (312) 814-3000 TTY: (800) 964-3013 Fax: (312) 814-3806
601 South University Ave., Carbondale, Illinois 62901 (618) 529-6400 TTY: (877) 675-9339 Fax: (618) 529-6416

OFFICE OF THE ATTORNEY G ENERAL
KWAME RAOUL

STATE OF ILLINOIS

ATTORNEY GENERAL

cc:

Robert Corn-Revere
Davis Wright Tremaine LLP
1919 Pennsylvanian Ave., NW
Suite 800
Washington, DC 20006

500 South Second Street, Springfield, Illinois 62701 (217) 782-1090 TTY: (877) 844-5461 Fax: (217) 782-7046
100 West Randolph Street, Chicago, Illinois 60601 (312) 814-3000 TTY: (800) 964-3013 Fax: (312) 814-3806
601 South University Ave., Carbondale, Illinois 62901 (618) 529-6400 TTY: (877) 675-9339 Fax: (618) 529-6416

